             -            CLOSEOUT .FOR M97050018

        OIG opened this case upon learning that                         University (the
 University) was conductin an inquiry to assess possible misconduct in science by
 the subject,                         The. inquiry was precipitated by -a
 court decision, in which the court found that the subject had misappropriated
 ideas constituting a legally protected trade secret from an industry colleague, Dr.
                    (the colleague).l The colleague, in collaboration with another
 scientist? (the collaborator), was apparently the first to conceive of an idea on how
 to use certain compounds.3 However, because they did not have experience in the
 synthesis of particular compounds, the colleague and her company retained the
 subject, who had related experience. Before the colleague provided information
 about this discovery, she required the subject to sign a confidentiality agreement,
 which he did on
 compounds was
                                           The court found that the idea for these
                                           trade secret of the colleague and her
 company, which the subject misappropriated when in                   he filed as sole
 inventor for his own patents on the compounds.5

        The subject had proposed to do                         compounds in an
                 which was received by NSF                    and awarded-
                 The NSF proposal was                              opinion. The
                  acknowledge any contribution by the colleague, but it did cite
 three publications by the subject and his co-workers reporting synthesis of the
 compounds and experiments utilizing them.7 Two of these publications
 acknowledged the collaborator, thanking him "for his original suggestion
 concerning the possible use of-           to trigger the detecting compound?




tr-          Opinion at            At the time, the colleague's company was-~nc.          Id at

                                 The colleague l e a ~ n cand
                                                            . in&formed              her own




                                 Page 1 of 2                                       M97-18
                        CLOSEOUT FOR M97050018

Although the collaborator originally worked with the colleague at her company,
and was initially listed as a co-inventor on the colleague's patent application, the
collaborator had by this time assigned his interest in the technology to the subject's
Uni~ersity.~

        In our experience it is extremely difficult to sort out the appropriate credit
that should be given in situations of 'this sort, where ideas are jointly conceived,
and collaborations have broken down and new alliances have formed. This is
particularly true when, as in this case, the evaluation of the situation occurs long
after the actions in question. In this case, although OIG learned of the allegations
in 1997, the NSF proposal in question was submitted i n . Moreover, we
recently learned that the University concluded its inquiry into the allegations
against the subject, ,and determined that the subject had not committed
misconduct in science. Since any finding of misconduct in relation to the NSF
proposal would depend on a clear assessment that the subject made inappropriate
use of the colleague's ideas, we believe that, in light of the University's
conclusions, further inquiry into this case would not support a finding of
misconduct. Nonetheless, we believe that it would have been a better practice for
the subject to acknowledge the colleague for her contribution to the ideas
underlying the subject's proposal.

       Finally, we note that the adverse effects stemming from the subject's use of
the colleague's ideas were rectified by the settlement of the court case, in which
the subject assigned his interests in the patents relating to the idea to the
colleague's company; and his subsequent agreement to a change to joint
inventorship.1° NSF's interests, moreover, have not been at issue for some time,
since the subject has not had NSF funding since the award expired in 1991, nor
has he applied for new funding since submitting the proposal in 1987.

       Accordingly, this case is closed and no further action will be taken.




                                Page 2 of 2                        .   M97-18
